No. 20-255

 

In THE
Supreme Court of the United States

MaHANOY AREA SCHOOL DISTRICT,
Petitioner,

Vv.
B.L., A MINOR, BY AND THROUGH HER FATHER

LAWRENCE LEVY AND HER MOTHER BETTY Lou LEvy,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

BRIEF OF THE STUDENT PRESS LAW CENTER,
ASSOCIATED COLLEGIATE PRESS, CENTER FOR
SCHOLASTIC JOURNALISM, FREEDOM TO READ

FOUNDATION, JOURNALISM EDUCATION

ASSOCIATION, NATIONAL SCHOLASTIC PRESS
ASSOCIATION, QUILL AND SCROLL, AND TULLY

CENTER FOR FREE SPEECH AS AMICI CURIAE

IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,292 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Wlogan
Wilson-Epes Printing Co., Inc.
